No. 20-366
In the

Supreme Court of the United States
_______________________________

DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES, ET AL.,
Appellants,
v.
STATE OF NEW YORK, ET AL.,
Appellees.
_______________________________
ON APPEAL FROM THE UNITES STATES
DISTRICT COURT FOR THE SOUTHERN DISTRICT OF NEW YORK
_______________________________
APPELLEES’ NOTICE OF SUPPLEMENTAL AUTHORITY
Earlier today, the three-judge district court in this case denied Appellees’
motion for a stay pending appeal, finding that “their arguments about . . . urgency
are frivolous,” and that Appellants are estopped from making any such argument.
New York v. Trump, No. 20-CV-5770 (RCW) (PWH) (JMF), Opinion and Order, ECF
No. 180, at 14, 5 (S.D.N.Y. Sept. 29, 2020).
Specifically, the Court found that:
Even if Defendants could not obtain appellate relief by the statutory
deadline for the Section 141(b) report, their own prior representations
and arguments make plain that they would not face any harm, let
alone irreparable harm, absent a stay. Defendants have repeatedly
maintained (in service of their arguments that resolution of these cases
was not urgent and that Plaintiffs could not show apportionmentbased irreparable harm) that “an erroneous or invalid apportionment
number can be remedied after the fact.” ECF No. 118 (“Defs.’ Original
Mem.”), at 48 (emphasis added) . . . That position is surely correct, . . .
and, regardless, is binding on Defendants here, see, e.g., New
Hampshire v. Maine, 532 U.S. 742, 749 (2001) (“Where a party
assumes a certain position in a legal proceeding, and succeeds in

maintaining that position, he may not thereafter, simply because his
interests have changed, assume a contrary position . . . .” (brackets and
internal quotation marks omitted)). And it is fatal to any claim of
irreparable harm. As Defendants admit, there is no magic to the
deadline for the Secretary’s Section 141(b) report; in the event
Defendants obtain appellate relief thereafter, they can implement the
Presidential Memorandum.
Id. at 4-5 (internal citations omitted). The court concluded that, “in the face of their
own prior admissions that a final resolution of these cases in 2021 would cause no
harm because the President could revise his apportionment statement to Congress,
Defendants’ arguments about irreparable harm and urgency are frivolous.” Id. at
14.
A copy of the Court’s opinion and order is attached here.

2

Respectfully submitted,
LETITIA JAMES
Attorney General
State of New York
Barbara D. Underwood*
Solicitor General
Steven C. Wu
Deputy Solicitor General
Judith N. Vale
Senior Assistant Solicitor General
Matthew Colangelo
Chief Counsel for Federal Initiatives
Elena Goldstein
Deputy Chief, Civil Rights Bureau
Morenike Fajana
Eric R. Haren
Special Counsels
Fiona J. Kaye
Assistant Attorney General
OFFICE OF THE ATTORNEY GENERAL
STATE OF NEW YORK
28 Liberty Street
New York, NY 10005
* Counsel of Record for
State of New York et al.

Dale E. Ho*
Cecillia D. Wang
Davin Rosborough
Adriel I. Cepeda Derieux
Sophia Lin Lakin
AMERICAN CIVIL LIBERTIES UNION FOUNDATION
125 Broad Street
New York, NY 10004
(212) 549-2693
dho@aclu.org
David D. Cole
Sarah Brannon
Ceridwen Cherry
AMERICAN CIVIL LIBERTIES UNION FOUNDATION
915 15th Street, NW
Washington, D.C. 20005
John A. Freedman
Elisabeth Theodore
R. Stanton Jones
Daniel F. Jacobson
Chase Raines
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Avenue, N.W.
Washington, D.C. 20001
Perry Grossman
NEW YORK CIVIL LIBERTIES UNION FOUNDATION
125 Broad Street
New York, NY 10004
Andre I. Segura
Edgar Saldivar
Thomas Buser-Clancy
AMERICAN CIVIL LIBERTIES UNION FOUNDATION
OF TEXAS
P.O. Box 8306
Houston, TX 77288
Julia A. Gomez
Peter Eliasberg
ACLU FOUNDATION OF SOUTHERN CALIFORNIA
1313 West 8th Street
Los Angeles, CA 90017

Attorneys for Appellees

Dated: September 29, 2020

* Counsel of Record for
New York Immigration Coalition, et al.

3

Case 1:20-cv-05770-JMF Document 180 Filed 09/29/20 Page 1 of 14

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
---------------------------------------------------------------------- X
:
STATE OF NEW YORK, et al.,
:
:
Plaintiffs,
:
:
-v:
:
DONALD J. TRUMP, in his official capacity as
:
President of the United States, et al.,
:
:
Defendants.
:
:
---------------------------------------------------------------------- X
Before:

20-CV-5770 (RCW) (PWH) (JMF)
OPINION AND ORDER

RICHARD C. WESLEY, United States Circuit Judge
PETER W. HALL, United States Circuit Judge
JESSE M. FURMAN, United States District Judge

PER CURIAM.
On July 21, 2020, the President of the United States issued a Memorandum declaring
that, “[f]or the purpose of the reapportionment of Representatives following the 2020 census” —
which is still ongoing — “it is the policy of the United States to exclude from the apportionment
base aliens who are not in a lawful immigration status.” Excluding Illegal Aliens From the
Apportionment Base Following the 2020 Census § 2, 85 Fed. Reg. 44,679, 44,680 (July 23,
2020) (ECF No. 1-1) (the “Presidential Memorandum”). Within days, Plaintiffs filed these
consolidated cases, familiarity with which is assumed, alleging that the Presidential
Memorandum violates the Constitution, statutes governing the census and apportionment, and
other laws. In an Opinion and Order entered September 10, 2020, we granted summary
judgment to Plaintiffs on the ground that the Presidential Memorandum constituted an “ultra
vires violation of Congress’s delegation of its constitutional responsibility to count the whole

Case 1:20-cv-05770-JMF Document 180 Filed 09/29/20 Page 2 of 14

number of persons in each State and to apportion members of the House of Representatives
among the States according to their respective numbers under 2 U.S.C. § 2a and 13 U.S.C.
§ 141.” New York v. Trump, — F. Supp. 3d —, No. 20-CV-5770 (RCW) (PWH) (JMF), 2020
WL 5422959, at *36 (S.D.N.Y. Sept. 10, 2020) (ECF No. 164); see ECF No. 165 (“Judgment”).
We declared the Presidential Memorandum to be unlawful. And we also entered an injunction
barring the Secretary of Commerce (the “Secretary”) and other Defendants from “including in
the Secretary’s report to the President pursuant to Section 141(b) [of the Census Act] . . . any
information concerning the number of aliens in each State who are not in a lawful immigration
status under the Immigration and Nationality Act.” New York, 2020 WL 5422959, at *35
(internal quotation marks and citation omitted). We confirmed, however, that Defendants were
“not enjoin[ed] . . . from continuing to study whether and how it would be feasible to calculate
the number of illegal aliens in each State.” Id.
On September 16, 2020, Defendants filed a notice of appeal of our judgment to the
Supreme Court and, the same day, moved for a stay of judgment pending appeal. See ECF Nos.
170-71; see also ECF No. 172 (“Defs.’ Mem.”). Plaintiffs filed their opposition on September
23. See ECF No. 176. Upon review of the parties’ submissions, and for the reasons that follow,
we DENY Defendants’ motion as meritless.
LEGAL STANDARD
In deciding whether to issue a stay pending appeal, a court must consider four factors:
(1) whether the movant has “made a strong showing” that it “is likely to succeed on the merits”;
(2) whether the movant “will be irreparably injured absent a stay”; (3) whether a stay “will
substantially injure the other parties interested in the proceeding”; and (4) “where the public
interest lies.” Nken v. Holder, 556 U.S. 418, 434 (2009). The first two factors — the likelihood

2

Case 1:20-cv-05770-JMF Document 180 Filed 09/29/20 Page 3 of 14

of success and irreparable harm — “are the most critical,” id., and “have typically been evaluated
on a sliding scale, so that a strong showing that the applicant is likely to succeed excuses a
weaker showing of irreparable injury,” Nat. Res. Def. Council, Inc. v. U.S. Food & Drug Admin.,
884 F. Supp. 2d 108, 122 (S.D.N.Y. 2012); accord Thapa v. Gonzales, 460 F.3d 323, 334 (2d
Cir. 2006). Nevertheless, as the Supreme Court has emphasized (in the parallel context of
issuing a preliminary injunction), “the applicant must demonstrate that both factors are satisfied,
so that even if a party makes a robust showing that it is likely to succeed on appeal, it must also
show that ‘irreparable injury is likely.’” Nat. Res. Def. Council, 884 F. Supp. 2d at 122 & n.12
(emphasis added) (quoting Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 22 (2008)).
Notably, “[a] stay is not a matter of right, even if irreparable injury might otherwise result. It is
instead an exercise of judicial discretion, and the propriety of its issue is dependent upon the
circumstances of the particular case.” Nken, 556 U.S. at 433 (internal quotation marks and
citations omitted). Ultimately, the party or parties seeking the stay bear “the heavy burden of
demonstrating that a stay is warranted.” U.S. Commodity Futures Trading Comm’n v.
eFloorTrade, LLC, No. 16-CV-7544 (PGG), 2020 WL 2216660, at *2 (S.D.N.Y. May 7, 2020)
(internal quotation marks omitted); accord Nken, 556 U.S. at 433-44. Defendants fall well short
of carrying their burden. In fact, they satisfy none of the four factors relevant to the analysis.
IRREPARABLE HARM
First and foremost, Defendants fail to show that they will suffer any irreparable injury
absent a stay. In fact, they do not even purport to make the necessary showing. They say only
that they “may suffer irreparable injury without a stay of the judgment.” Defs.’ Mem. 6
(emphasis added) (capitalization altered). But that is not the relevant standard. See Nken, 556
U.S. at 434 (“will be irreparably injured” (emphasis added)); see also, e.g., Rubin v. United

3

Case 1:20-cv-05770-JMF Document 180 Filed 09/29/20 Page 4 of 14

States, 524 U.S. 1301, 1301 (1998) (Rehnquist, C.J., in chambers) (“An applicant for stay first
must show irreparable harm if a stay is denied.” (emphasis added)).
By itself, that failure is enough to deny Defendants’ motion. But even if Defendants
were correct about the applicable standard, their arguments about irreparable harm are frivolous.
First, by their own admission, our injunction will not “actually constrain[] Defendants’ actions”
until at least December 31, 2020 — the statutory deadline for the Secretary’s Section 141(b)
report. Defs.’ Mem. 3.1 At a minimum, therefore, Defendants would have to show that they
could not obtain appellate relief by that date. Yet they make no such showing.2
Even if Defendants could not obtain appellate relief by the statutory deadline for the
Section 141(b) report, their own prior representations and arguments make plain that they would
not face any harm, let alone irreparable harm, absent a stay. Defendants have repeatedly
maintained (in service of their arguments that resolution of these cases was not urgent and that
Plaintiffs could not show apportionment-based irreparable harm) that “an erroneous or invalid
apportionment number can be remedied after the fact.” ECF No. 118 (“Defs.’ Original Mem.”),
at 48 (emphasis added); see also ECF No. 79 (“Aug. 5, 2020 Tr.”), at 16 (“[T]he case could be
decided after the president submits the numbers to Congress.”); Defs.’ Original Mem. 9-10
(“[Plaintiffs’] challenge should await the actual apportionment . . . .”); ECF No. 154 (“Defs.’
Due to events since Defendants’ motion, the injunction may not constrain Defendants’
actions until later. On September 24, 2020, the United States District Court for the Northern
District of California granted a preliminary injunction staying the “U.S. Census
Bureau’s . . . September 30, 2020 deadline for the completion of data collection and December 31,
2020 deadline for reporting the tabulation of total population to the President” and enjoining the
Secretary, the Department of Commerce, the Director of the U.S. Census Bureau, and the U.S.
Census Bureau “from implementing these two deadlines.” Nat’l Urban League v. Ross, — F.
Supp. 3d —, No. 5:20-CV-5799 (LHK), 2020 WL 5739144, at *48 (N.D. Cal. Sept. 24, 2020).
1

2

Notably, we entered final judgment only 48 days after these lawsuits were filed (and 51
days after the Presidential Memorandum was issued), at which time there were 112 days
remaining until the statutory deadline.
4

Case 1:20-cv-05770-JMF Document 180 Filed 09/29/20 Page 5 of 14

Original Reply”), at 2 (“[A]pportionment challenges have historically been decided postapportionment without spurring the ‘chaos’ that Plaintiffs allege (without factual support) will
occur here if the Court waits.”). “[T]here is no need,” they asserted, “to resolve this lawsuit
before the submission of the enumeration numbers to the President” — so long as it was resolved
in time for “the 2022 elections.” ECF No. 37 (“Joint Pre-Conf. Ltr.”), at 5 (emphasis added).
That position is surely correct, see, e.g., Utah v. Evans, 536 U.S. 452, 462 (2002);
Franklin v. Massachusetts, 505 U.S. 788, 803 (1992), and, regardless, is binding on Defendants
here, see, e.g., New Hampshire v. Maine, 532 U.S. 742, 749 (2001) (“Where a party assumes a
certain position in a legal proceeding, and succeeds in maintaining that position, he may not
thereafter, simply because his interests have changed, assume a contrary position . . . .” (brackets
and internal quotation marks omitted)). And it is fatal to any claim of irreparable harm. As
Defendants admit, there is no magic to the deadline for the Secretary’s Section 141(b) report; in
the event Defendants obtain appellate relief thereafter, they can implement the Presidential
Memorandum.
LIKELIHOOD OF SUCCESS ON THE MERITS
Defendants also fail to make a showing, let alone a “strong showing,” that they are
“likely to succeed on the merits.” Nken, 556 U.S. at 434. Defendants make three arguments: (1)
that, in holding that “the Presidential Memorandum violates Congress’s mandate to use the
results of the census — and only the results of the census — in connection with the
apportionment process,” New York, 2020 WL 5422959, at *27, we failed to consider that
Franklin approved the use of “administrative records when conducting the enumeration,” Defs.’
Mem. 4-5; (2) that, in holding that “[t]he statutory command to use the ‘whole number of
persons in each State’ as the apportionment base does not give the President discretion to

5

Case 1:20-cv-05770-JMF Document 180 Filed 09/29/20 Page 6 of 14

exclude illegal aliens on the basis of their legal status, without regard for their residency,” New
York, 2020 WL 5422959, at *32, we “mistakenly suggested that the meaning of 2 U.S.C. § 2a is
different from the substantive standard under the Constitution,” and that the Constitution leaves
room for the President to exclude illegal aliens from the “whole number of persons in each
State,” Defs.’ Mem. 5-6 (citation omitted); and (3) that there is “a mismatch between the asserted
injury on which the Court relied (the chilling effect [on the census count]) and the relief that it
ordered (an injunction of conduct after census field operations end),” id. at 3.
We will address each argument in turn.
A. Apportionment Must Be Based on the Results of the Census Alone
Defendants’ first argument rests on either a mischaracterization or a serious
misunderstanding of our Opinion and Order, as well as additional disregard of their own prior
concessions. We did not overlook that the census count in Franklin was based in part on
administrative records, let alone suggest that the Secretary, in exercising his discretion with
respect to the census under Section 141(a), could not use administrative records “to subtract
people” in reaching a final census count even though they were enumerated. Defs.’ Mem. 5
(emphasis omitted). To the contrary, we explicitly acknowledged Defendants’ argument that the
overseas personnel at issue in Franklin “were counted using administrative records rather than a
questionnaire” and explained that that fact “was of no moment” because there, unlike here, “[t]he
overseas personnel were counted as part of the census itself, resulting in a single ‘tabulation of
total population by States’ under the ‘decennial census.’” New York, 2020 WL 5422959, at *28
n.15 (quoting 13 U.S.C. §§ 141(a)-(b)).
The Secretary might have discretion under the Census Act to use administrative records
as a method of not counting people in the census. But for whatever strategic reason, that is not

6

Case 1:20-cv-05770-JMF Document 180 Filed 09/29/20 Page 7 of 14

what the Presidential Memorandum does. Instead, the Presidential Memorandum directs the
Secretary to report “[t]he tabulation of total population by States” under the previously adopted
“Residence Rule” that governs the “decennial census” and a second set of numbers based on
something other than the census.3 Indeed, during this litigation, Defendants themselves
repeatedly admitted as much. See, e.g., Joint Pre-Conf. Ltr. 5 (“Plaintiffs are not challenging
some procedure that will be used in the actual census, but an apportionment number that will be
chosen by the President after the census is complete.”).4 They cannot now — or on appeal —
retreat from those admissions. And for the reasons we have already explained, those admissions
render the Presidential Memorandum an ultra vires violation of the statutes governing the census
and apportionment. See New York, 2020 WL 5422959, at *25-29.
B. The Apportionment Base Must Include Illegal Aliens Who Reside in a State
Defendants’ second claim — that we erred in finding that illegal aliens who reside in the
United States qualify as “persons in” a “State” under Section 2a — fares no better. For one
thing, the argument assumes that Defendants have the better of the constitutional argument —
that the same language in the Constitution might carry a different meaning. Although we did not

See Presidential Memorandum, 85 Fed. Reg. at 44,679 (titled “Excluding Illegal Aliens
From the Apportionment Base Following the 2020 Census” (emphasis added); id. at 44,680 § 3
(requiring the Secretary “to provide information permitting the President, to the extent
practicable, to exercise the President’s discretion to carry out the policy set forth in section 2 of
this memorandum. The Secretary shall also include in that report information tabulated
according to the methodology set forth in Final 2020 Census Residence Criteria and Residence
Situations, 83 [Fed. Reg.] 5525 (Feb. 8, 2018).” (emphasis added)).

3

See also, e.g., ECF No. 120 ¶ 12 (“The Presidential Memorandum . . . has had no impact
on . . . the Census Bureau’s commitment to count each person in their usual place of residence,
as defined in the [Residence Rule].”); ECF No. 118, at 4 (“The Presidential Memorandum directs
the Secretary of Commerce to submit to the President two tabulations.”); id. at 12 (“[T]he
Memorandum does not affect how the Census Bureau is conducting its remaining enumeration
operations . . . .” (emphasis in original)); Defs.’ Original Reply 2 “([T]he Memorandum itself
[does] not in any way affect the conduct of the actual census . . . .”).

4

7

Case 1:20-cv-05770-JMF Document 180 Filed 09/29/20 Page 8 of 14

reach the constitutional question in our Opinion and Order — and need not do so here — that
proposition is certainly debatable. By their own admission, Defendants cannot cite a single
example in the historical record where any branch of the Government adopted the interpretation
of the Constitution that they now advance. See Oral Arg. Tr. 46; New York, 2020 WL 5422959,
at *32; see also, e.g., N.L.R.B. v. Noel Canning, 573 U.S. 513, 524 (2014) (holding that
“historical practice” was entitled to “significant weight” in interpreting the Recess Appointments
Clause); Free Enter. Fund v. Pub. Co. Accounting Oversight Bd., 561 U.S. 477, 505 (2010)
(observing that “[p]erhaps the most telling indication of the severe constitutional problem with”
the structure of the independent agency at issue was its “lack of historical precedent” (quoting
Free Enter. Fund v. Pub. Co. Accounting Oversight Bd., 537 F.3d 667, 699 (D.C. Cir. 2008)
(Kavanaugh, J., dissenting))).
In any event, Justice Frankfurter’s axiom that “if a word is obviously transplanted from
another legal source . . . it brings the old soil with it,” Felix Frankfurter, Some Reflections on the
Reading of Statutes, 47 COLUM. L. REV. 527, 537 (1947) (cited at Defs.’ Mem 5), does not get
Defendants very far, for at least two reasons. First, as we noted in our Opinion and Order, a
court’s principal task in interpreting a statute is to apply its terms “in accord with the ordinary
public meaning . . . at the time of its enactment.” Bostock v. Clayton Cnty., 140 S. Ct. 1731,
1738 (2020); accord Food Mktg. Inst. v. Argus Leader Media, 139 S. Ct. 2356, 2362-63 (2019)
(citing cases). The “old soil” axiom is a means to that end; at bottom, it is an application of the
well-established principle that when Congress adopts the language of an earlier legal source, it is
presumed to have also adopted the settled understanding given to such language “and made it a
part of the enactment.” United States v. Kwai Fun Wong, 575 U.S. 402, 425 (2015) (Alito, J.,
dissenting) (citation omitted); see Stokeling v. United States, 139 S. Ct. 544, 551 (2019). As we

8

Case 1:20-cv-05770-JMF Document 180 Filed 09/29/20 Page 9 of 14

previously demonstrated, to the extent that there was a settled understanding of the constitutional
language in 1929, when the precursor to Section 2a was enacted, it was that the “whole number
of persons in each State” used for apportionment included all persons residing in a State, without
regard for legal status. See New York, 2020 WL 5422959, at *30-32.5 At best, Defendants
maintain that the constitutional question was unsettled in 1929 (and, indeed, that it remains
unsettled today). If so, the old soil does not answer the relevant question.
Moreover, as we explained in our Opinion and Order, there was a good reason not to
plow the “old soil” in this case: Doing so would run contrary to the equally well-established
principle that courts should not “pass upon a constitutional question although properly presented
by the record, if there is also present some other ground upon which the case may be disposed
of.” New York, 2020 WL 5422959, at *25 (quoting Ashwander v. TVA, 297 U.S. 288, 347
(1936) (Brandeis, J., concurring).6 The Supreme Court has never followed the “old soil” axiom
in interpreting a statute where, as here, the “old soil” was the Constitution itself, let alone where,
as here also, doing so would entail passing upon a constitutional question for the first time.
Doing so would be inconsistent with “the fundamental principle of judicial restraint.” Wash.

Defendants argue that, in our Opinion and Order, we “appeared to rely on statements
suggesting a view only that aliens (writ large) cannot be excluded from the enumeration count
for apportionment,” which “does not answer the question whether a smaller subset — some or all
aliens who are here unlawfully — may be excluded.” Defs.’ Mem. 6 (citation omitted). But
Defendants do not identify a single statement or source in 1929 that differentiated between legal
and illegal aliens with respect to the statutory phrase “whole number of persons in each State.”
That silence is fatal to Defendants’ argument.
5

Thus, Defendants’ assertion in the Jurisdictional Statement they filed in the Supreme
Court, that we “gave no reason for departing from the presumption that when ‘a word is
obviously transplanted from another legal source,’ it ‘brings the old soil with it,’” is wrong.
Jurisdictional Statement 32, Trump v. New York, No. 20-366 (Sept. 22, 2020) (“Jurisdictional
Statement”) (quoting Hall v. Hall, 138 S. Ct. 1118, 1128 (2018)). Likely because it flies in the
face of our Opinion and Order, Defendants do not make the same assertion in their brief seeking
relief from us here.

6

9

Case 1:20-cv-05770-JMF Document 180 Filed 09/29/20 Page 10 of 14

State Grange v. Wash. State Republican Party, 552 U.S. 442, 450-51 (2008). And doing so here
would have unnecessarily complicated our task, as the meaning of the phrase “whole number of
persons in each State” in 1929 was and is clear without the need to delve into Founding and
Reconstruction era sources. See Ashwander, 297 U.S. at 347 (Brandeis, J., concurring) (“It is not
the habit of the [C]ourt to decide questions of a constitutional nature unless absolutely necessary
to a decision of the case.” (citation omitted)).
C. Defendants’ Mismatch Argument Was Waived and Does Not Justify a Stay
Finally, Defendants’ mismatch argument does not merit a stay for several reasons. First,
they waived the argument by not pressing it earlier. See, e.g., Barrientos v. 1801-1825 Morton
LLC, 583 F.3d 1197, 1215 (9th Cir. 2009) (“[The defendant] did not object to the scope of the
injunction before the district court and, therefore, has waived the objection.”); In re Aimster
Copyright Litig., 334 F.3d 643, 656 (7th Cir. 2003) (“[Defendant] objects to the injunction’s
breadth. But having failed to suggest alternative language either in the district court or in this
court, it has waived the objection.”).7 Defendants try to evade the consequences of their earlier
silence by suggesting (and arguing more explicitly in their Jurisdictional Statement in the
Supreme Court) that the issue relates to standing or mootness and, thus, jurisdiction. See Defs.’
Mem. 2-3; see also Jurisdictional Statement 12-16. But that suggestion is meritless. It is black
letter law that “the standing inquiry” is “focused on . . . when the suit was filed,” Davis v. Fed.
Election Comm’n, 554 U.S. 724, 734 (2008), and census operations were in full swing when

7

This issue was foreseeable well before our decision. The prospect that, in finding
standing and granting relief, we might rely solely on the harms caused by the Presidential
Memorandum to the census count was apparent as early as the initial conference on August 5,
2020. See Aug. 5, 2020 Tr. 25-35. That we had multiple avenues available through which we
could find a violation and craft relief does not excuse Defendants’ failure to recognize and
address the issue in their brief or during oral argument.

10

Case 1:20-cv-05770-JMF Document 180 Filed 09/29/20 Page 11 of 14

these suits were filed. And there is certainly no mootness issue now (let alone at the time we
issued our Opinion and Order), as census operations are ongoing as of today and may continue
for at least a month. See Nat’l Urban League, 2020 WL 5739144, at *48; see also, e.g., 2020
Census Deadline Extensions Act, S. 4571, 116th Cong. (2020) (bipartisan bill introduced in the
Senate on September 15, 2020 that would extend census operations to October 31, 2020).
Second, to the extent that Defendants are correct that, upon the end of census operations,
our injunction would no longer be needed to prevent census-related harms, they seek the wrong
form of relief and at the wrong time. Instead, Defendants must move to modify or dissolve the
injunctive portion of our judgment at the end of census operations, pursuant to Rules 60(b)(5)
and 62(d) of the Federal Rules of Civil Procedure. See, e.g., Fed. R. Civ. P. 62(d) (“While an
appeal is pending from . . . [a] final judgment that grants . . . an injunction, the court may
suspend, modify, restore, or grant an injunction . . . .”); Horne v. Flores, 557 U.S. 433, 447
(2009) (“Rule [60(b)(5)] provides a means by which a party can ask a court to modify or vacate a
judgment or order if a significant change either in factual conditions or in law renders continued
enforcement detrimental to the public interest.” (internal quotation marks and citation omitted));
see also Fed. R. App. P. 8(a)(1) (“A party must ordinarily move first in the district court for . . .
an order suspending, modifying, restoring, or granting an injunction while an appeal is
pending.”). Staying the injunction now would be inappropriate in this respect, because the
factual circumstances could be materially different at the end of census operations — and not
necessarily in Defendants’ favor.8 Put differently, Defendants’ confident assertion that there will

8

For example, if the Census Bureau and the Secretary have determined by that time the
methodology they will use to count the number of “aliens who are not in a lawful immigration
status” as directed in the Presidential Memorandum, Plaintiffs’ asserted apportionment harms
might no longer be speculative and could well justify maintaining the injunction.
11

Case 1:20-cv-05770-JMF Document 180 Filed 09/29/20 Page 12 of 14

be no factual basis for an injunction following the end of census operations is entirely
speculative and thus can’t serve as the basis for a stay at this point.
Finally, the real “mismatch” here is between Defendants’ arguments and the relief they
seek, namely a stay of our judgment in its entirety. Injunction aside, Defendants’ argument on
appeal provides absolutely no basis to disturb the declaratory judgment (thus undermining
Defendants’ assertion that our Opinion and Order constitutes an impermissible “advisory
opinion”). See, e.g., Richardson v. Ramirez, 418 U.S. 24, 34-40 (1974) (holding that a case was
not moot based in part on the fact that the lower court had granted declaratory relief); cf.
Brockington v. Rhodes, 396 U.S. 41, 42 (1969) (“[I]n view of the limited nature of the relief
sought, we think the case is moot because the congressional election is over. The appellant did
not allege that he intended to run for office in any future elections. . . . He did not seek a
declaratory judgment, although that avenue too was open to him.” (emphases added)). We
assume — just as the Supreme Court did in Utah and Franklin — that it is “substantially likely
that the President and other executive and congressional officials would abide by an authoritative
interpretation of the census statute . . . by the District Court . . . .” Franklin, 505 U.S. at 803
(plurality opinion), quoted with approval in Utah, 536 U.S. at 463-64 (majority opinion). To the
extent that this assumption is valid, there is no basis for a stay because, so long as the declaratory
judgment stands, the Secretary will not include the second set of numbers in his Section 141(b)
report anyway. And to the extent that this assumption is invalid, there is no basis for a stay
because the injunction is needed to prevent Defendants from acting unlawfully.
HARM TO PLAINTIFFS AND THE PUBLIC INTEREST
Finally, the third and fourth stay factors — whether a stay “will substantially injure”
Plaintiffs and “where the public interest lies,” Nken, 556 U.S. at 434; see, e.g., Sierra Club v.

12

Case 1:20-cv-05770-JMF Document 180 Filed 09/29/20 Page 13 of 14

Trump, 929 F.3d 670, 704-05 (9th Cir. 2019) (holding that where, as here, the government seeks
a stay, the third and fourth factors merge) — also weigh heavily against a stay. Defendants’
argument on the third prong is limited to two sentences, see Defs.’ Mem 7, and barely merits
commentary. Defendants would not suffer any harm in the absence of a stay. But if a stay were
granted, Plaintiffs would suffer the irreparable injuries detailed at length in our Opinion and
Order: the “massive and lasting consequences” of an inaccurate census count, which “occurs
only once a decade, with no possibility of a do-over if it turns out to be flawed.” New York, 2020
WL 5422959, at *16 (citation omitted); see also id. at *9-23. Moreover, we fail to see how, as
Defendants argue, “a stay serves the public interest by promoting clarity for the public (and for
the parties) as to exactly what will happen in the upcoming census process,” Defs.’ Mem. 8 —
given that Defendants have not articulated how, if at all, the Secretary plans to fulfill his
directive under the Presidential Memorandum. See Defs.’ Original Mem. 7 (“The extent to
which it will be feasible for the Census Bureau to provide the Secretary of Commerce a second
tabulation is, at this point, unknown.”); see also id. at 4, 8; Joint Pre-Conf. Ltr. 5; Defs.’ Original
Reply 1-2, 6-7; Sept. 3, 2020 Oral Arg. Tr. 36. And, of course, “[t]here is generally no public
interest in the perpetuation of unlawful agency action. To the contrary, there is a substantial
public interest in having governmental agencies abide by the federal laws that govern their
existence and operations.” League of Women Voters of U.S. v. Newby, 838 F.3d 1, 12 (D.C. Cir.
2016) (internal quotation marks and citations omitted).
CONCLUSION
In sum, Defendants have not come close to carrying “the[ir] burden of showing that the
circumstances justify an exercise” of our discretion to grant a stay. Nken, 556 U.S. at 433-34.
They fail to show that they are likely to succeed on the merits or that a stay would be in the

13

Case 1:20-cv-05770-JMF Document 180 Filed 09/29/20 Page 14 of 14

public interest. And more significantly, in the face of their own prior admissions that a final
resolution of these cases in 2021 would cause no harm because the President could revise his
apportionment statement to Congress, Defendants’ arguments about irreparable harm and
urgency are frivolous. Accordingly, Defendants’ motion for a stay is DENIED.
The Clerk of Court is directed to terminate ECF No. 171.

SO ORDERED.
Dated: September 29, 2020
New York, New York

_______________/s/_________________
RICHARD C. WESLEY
United States Circuit Judge
_______________/s/_________________
PETER W. HALL
United States Circuit Judge
_______________/s/_________________
JESSE M. FURMAN
United States District Judge

14

